           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION

     FOLLOW-UP: INDIVIDUALS
RECEIVING BENEFITS UNDER MULTIPLE
    SOCIAL SECURITY NUMBERS
     AT DIFFERENT ADDRESSES

     January 2012   A-01-11-11145




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      January 13, 2012                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: Individuals Receiving Benefits Under Multiple Social Security Numbers at
           Different Addresses (A-01-11-11145)


           OBJECTIVE
           The objective of our review was to identify and prevent individuals from inappropriately
           receiving Old-Age, Survivors and Disability Insurance (OASDI) benefits and/or
           Supplemental Security Income (SSI) payments under multiple Social Security numbers
           (SSN) at different mailing addresses.

           BACKGROUND
           In general, the Social Security Administration (SSA) assigns an individual only one
           SSN. 1 However, in some cases, because of fraud or staff mistakes, the Agency has
           assigned individuals more than one SSN. As a result, the Agency has controls in place
           to identify beneficiaries who may be receiving duplicate payments under different SSNs.

           When an individual applies for OASDI benefits or SSI payments, SSA staff asks the
           person about any prior applications.2 This is to ensure that individuals who may be
           entitled on more than one record receive the correct amount. In addition, SSA runs
           computer matches to identify records that appear to be duplicates based on name, date
           of birth, and/or ZIP code. SSA personnel review the records to determine whether they
           relate to the same beneficiary, correct the benefit amounts (if necessary), and assess
           any overpayments. For more information on SSA’s controls for detecting duplicate
           payments, see Appendix B.

           In our August 2006 report, Beneficiaries Paid Under More Than One Social Security
           Number (A-01-06-26022), we identified $3 million in overpayments to 221 beneficiaries

           1
             Under certain circumstances, SSA may assign an individual more than one SSN, such as when the
           individual objects to certain numbers in his or her original SSN for religious or cultural reasons. SSA,
           POMS, RM 10220.045 (January 21, 2011).
           2
               SSA, POMS, GN 00205.010 (May 8, 2002).
Page 2 - The Commissioner


who inappropriately received benefits under multiple SSNs at different addresses. Of
these 221 cases, our Office of Investigations assessed 212 for potential fraud.

To conduct our current review, we analyzed a file of OASDI beneficiaries and SSI
recipients who received benefits in January 2010. Our analysis of SSNs and other
benefit data identified 165 beneficiaries who appeared to be inappropriately receiving
benefits at different addresses under at least 2 different SSNs. We referred these
cases to SSA for review and appropriate action. (See Appendix C for additional
information on our scope and methodology.)

RESULTS OF REVIEW
Based on the results of our review, SSA assessed approximately $2.9 million in
overpayments to 46 beneficiaries who inappropriately received benefits under multiple
SSNs at different addresses.3 Of these 46 cases, 40 involved possible fraud and
6 involved administrative errors. In addition, the Agency avoided paying $354,070 by
discontinuing these incorrect payments.4 As of December 2011, 77 cases had not been
assessed overpayments because they were still under review—with 74 of the 77 cases
being investigated for potential fraud by our Office of Investigations. Therefore, we
expect SSA to assess additional overpayments.

Specifically, of the 165 cases,
                                                                  Chart 1: Sample Results
•     6 had administrative errors with                  40 (24%)                                      77 (47%)
      $17,848 in overpayments;                           Cases of                                     Cases Still
                                                      Potential Fraud                                   Under
•     40 involved potential fraud with                     with
                                                      Overpayments
                                                                                                       Review

      approximately $2.9 million in
      overpayments;
•     42 were not overpaid; 5 and
•     77 were still under review as of
      December 2011, and SSA had not
      yet assessed overpayments—with                      42 (25%)                            6 (4%)
      74 of the 77 cases being                            Cases Not                         Cases with
      investigated for potential fraud.                   Overpaid                         Administrative
                                                                                              Errors

Table 1 summarizes the cases and overpayments by benefit type.


3
 In 2 of the 46 cases, the beneficiaries were deceased and SSA did not assess an overpayment. As of
December 2011, SSA had recovered $186,345 (6 percent) of the approximate $2.9 million in
overpayments.
4
  This is the amount SSA would have paid the beneficiaries had it not stopped benefits based on action
taken during our review. We calculated the savings by taking the last monthly overpayment received by
the beneficiaries multiplied by 12 months.
5
    In most of these cases, SSA determined the beneficiaries were different individuals, such as twins.
Page 3 - The Commissioner


        Table 1: Summary of Cases and Overpayments by Benefit Type
                                                                                  Total Cases and
                          OASDI Only             SSI Only       OASDI and SSI
                                                                                   Overpayments
    Potential Fraud     13    $1,065,732     2     $152,096     25   $1,655,021   40     $2,872,849
    Administrative
                          -             -    -              -   6      $17,848      6       $17,848
    Errors
    Subtotal            13    $1,065,732     2     $152,096     31   $1,672,869    46    $2,890,697
    Not Overpaid        18              -    -              -   24            -    42             -
    Pending Review      34              -    4              -   39            -    77             -
    Total Cases and
                        65    $1,065,732     6     $152,096     94   $1,672,869   165    $2,890,697
    Overpayments

Beneficiaries Overpaid Due to Potential Fraud

SSA staff—working with Office of the Inspector General investigators—determined that
the Agency had inappropriately paid 40 beneficiaries approximately $2.9 million
because of potential fraud. 6 The average overpayment amount was $73,663, and the
average number of months the individuals were overpaid was 94 (more than 7 years).

SSA referred the 40 cases to our Office of Investigations, which investigates activity
related to fraud in SSA’s programs, including wrongdoing by individuals, such as
applicants. Potential fraud includes individuals who make a false statement on a claim
or conceal material facts that affect eligibility for benefits. The Office of Investigations
refers for legal action those cases where there is reason to believe a beneficiary
violated a Federal criminal law.

Below are examples of potential fraud cases we found during our review.
•     A New York resident obtained two SSNs using different names in 1957 and 1979. In
      March 2003, she began receiving widow’s benefits at one address under the first
      SSN. In March 2006, she began receiving retirement benefits at another address
      under the second SSN. When filing for retirement benefits, she did not report
      receiving any other benefit income—although she was receiving widow’s benefits.
      She was overpaid $22,486 from March 2006 through July 2011. Our Office of
      Investigations is reviewing this case for potential fraud.
•     A California resident obtained two different SSNs in 1959 and 1986. In
      August 1989, she began receiving disability benefits at one address under the first
      SSN. Using the other SSN and another address, she continued working and began
      receiving retirement benefits in January 2004. Because she continued working, SSA
      determined she was not eligible for disability benefits. Therefore, she was overpaid
      $154,194 from April 1994 through June 2011. Our Office of Investigations is
      reviewing this case for potential fraud.

6
    In 1 of the 40 cases, the beneficiary was deceased and SSA did not assess an overpayment.
Page 4 - The Commissioner


In addition to the 40 potential fraud cases with overpayments assessed, SSA referred
74 cases still under review and 6 other cases to our Office of Investigations. In total, the
Agency referred 120 (73 percent) of the 165 cases for investigation. 7

SSA runs computer matches to identify records that appear to be duplicates based on
name, date of birth, and/or ZIP code. However, the Agency was unable to detect these
cases because the beneficiaries had different addresses, and some were also receiving
benefits under different names.

Beneficiaries Overpaid Due to Administrative Error

SSA staff determined it overpaid six beneficiaries because of administrative errors,
resulting in $17,848 in overpayments.8 In four cases, SSA was aware the beneficiaries
were receiving both OASDI and SSI benefits under two different SSNs; however,
Agency staff had not appropriately cross-referenced the records.

For example, in January 1987, a Montana resident began receiving SSI payments
under one SSN. In November 1988, she began receiving disability benefits at a
different address under another SSN. Although she was eligible for both benefits, SSA
had not cross-referenced these records appropriately, and the recipient was overpaid
$2,131 from March 2009 through May 2011.

OBTAINING MULTIPLE SSNs

Although SSA generally assigns one SSN per individual, the individuals we identified in
our review involving potential fraud had more than one SSN. Generally, SSA assigned
these SSNs before 2001. 9 Since 2001, the Agency has implemented several initiatives
to protect the integrity of the SSN. For example, SSA

•     began requiring (1) mandatory interviews of all applicants for original SSNs over
      age 12 and (2) evidence of identity for all applicants, regardless of age, and 10
•     established several Enumeration Centers that focus exclusively on assigning SSNs
      and issuing SSN cards. 11



7
 In six of the cases the Agency referred to our Office of Investigations because of suspected fraud, one
had an administrative error and five were not overpaid.
8
 In one of the six administrative error cases, the beneficiary was deceased and SSA did not assess an
overpayment.
9
    In four cases, SSA staff issued the second SSN after 2001.
10
     SSA, POMS, RM 10210.001 (January 7, 2010).
11
   SSA has 10 enumeration centers: 1 each in California, Florida, Minnesota, Nevada, and Pennsylvania;
2 in Arizona; and 3 in New York.
Page 5 - The Commissioner

Additionally, the Intelligence Reform and Terrorism Prevention Act of 2004 requires that
SSA (1) verify birth records for any individual before assigning an original SSN and
(2) establish minimum standards for the verification of documents or records submitted
by an individual to establish eligibility for an original or replacement SSN card, other
than for purposes of enumeration at birth. 12

CONCLUSION AND RECOMMENDATION
Based on our review, SSA assessed approximately $2.9 million in overpayments to
46 beneficiaries who inappropriately received benefits under multiple SSNs at different
addresses; and another 74 cases were under investigation for potential fraud and could
result in additional overpayments. In total, SSA referred over 73 percent of the cases
for investigation of potential fraud. As a result, this review supports SSA’s Strategic
Plan to collaborate with the Office of the Inspector General to reduce instances of fraud
and pursue prosecution of individuals who harm its programs. 13

Once the Office of Investigations completes its assessment of the pending potential
fraud cases, we recommend SSA take appropriate action, such as assessing
overpayments, stopping benefits, etc.

AGENCY COMMENT
SSA agreed with the recommendation. See Appendix D.




                                             Patrick P. O’Carroll, Jr.




12
  The Intelligence Reform and Terrorism Prevention Act of 2004, Pub. L. No. 108-458 §7213,
118 Stat. 3638, 3830-3832 (2004).
13
     SSA, Strategic Plan Fiscal Years 2008 Through 2013, page 26.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – The Social Security Administration’s Controls for Detecting Duplicate
             Payments
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
MAFDUP        Master File Duplicate Detection Operation
MBR           Master Beneficiary Record
OASDI         Old-Age, Survivors and Disability Insurance
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
SSN           Social Security Number
SSR           Supplemental Security Record
U.S.C.        United States Code
                                                                       Appendix B

The Social Security Administration’s Controls
for Detecting Duplicate Payments
When an individual applies for Old-Age, Survivors and Disability Insurance (OASDI)
benefits or Supplemental Security Income (SSI) payments, Social Security
Administration (SSA) staff asks the person about any prior applications. This is to
ensure individuals who may be entitled on more than one record receive the correct
amount. In addition, SSA runs computer matches to identify records that appear to be
duplicates based on name, date of birth, and/or ZIP code. SSA personnel review the
records to determine whether they relate to the same beneficiary, correct the benefit
amounts (if necessary), and assess any overpayments.

OASDI

Under Title II of the Social Security Act, the OASDI program provides monthly benefits
to retired or disabled workers and their families and to survivors of deceased workers. 1
An individual may be eligible for benefits on several records. For example, a person
can be entitled to benefits on their own earnings record and on their spouse’s record.
Although entitled on both records, SSA’s procedures generally provide that only the
higher benefit amount is payable.

To ensure individuals who are entitled to multiple OASDI benefits receive the correct
payment amount, SSA developed systems to adjust, validate, and post accurate
entitlement information on the Master Beneficiary Record (MBR) involved. 2 SSA has
another control in place to detect duplicate OASDI benefits, the Master File Duplicate
Detection Operation (MAFDUP). The Agency runs MAFDUP to detect records that
match on several items, including first name, middle initial, last name, ZIP code, and
date of birth. MAFDUP generates alerts at the appropriate SSA office for beneficiaries
who may be receiving benefits under multiple Social Security numbers (SSN).

SSI

Under Title XVI of the Social Security Act, the SSI program provides a minimum level of
income to financially needy individuals who are aged, blind, or disabled. 3 Generally,
individuals may receive payment of both OASDI and SSI benefits under the same SSN



1
    Social Security Act §§ 202(a) – (k), 42 U.S.C. §§ 402(a) – (k).
2
    SSA, POMS, SM 00823.001 (April 20, 2005).
3
    Social Security Act § 1601, et seq., 42 U.S.C. § 1381, et seq.


                                                      B-1
as long as the combination of benefits does not exceed the SSI Federal Benefit Rate,
plus a $20 allowance. 4

The Supplemental Security Record exchanges information with other SSA systems to
detect duplicate records and payments. When the system detects differences between
the identity data from the Supplemental Security Record and other databases, it
generates an automatic alert. SSA field office staff review the records, resolve any
discrepancies, and make any necessary adjustments to the SSI payments.5

Additionally, SSA designed the SSI Duplicate Payment Project to reduce the possibility
of a recipient receiving duplicate payments because of multiple SSI records. 6 The
Agency designed the project to identify cases that have matching names and the same
date of birth. The project identifies cases that meet these criteria and transmits alerts to
the appropriate SSA office to resolve the discrepancies.




4
    Social Security Act § 1611(a)(1)(A), 42, U.S.C. § 1382(a)(1)(A).
5
    SSA, POMS, SM 02001.001-.425 (varying effective dates).
6
    SSA, POMS, SI 02310.100 (May 27, 1999).


                                                     B-2
                                                                                  Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, rules, policies, and procedures as well as other
    applicable Federal laws and regulations.
•   Reviewed our August 2006 report, Beneficiaries Paid Under More than One Social
    Security Number (A-01-06-26022), and ensured SSA reviewed the pending cases.
•   Obtained a file of Master Beneficiary Records (MBR) for all Old-Age, Survivors and
    Disability Insurance beneficiaries and Supplemental Security Records (SSR) for all
    Supplemental Security Income recipients who received benefits in January 2010. 1
    We ran several matches on these files based on the following fields: date of birth;
    first name; place of birth; and parent’s last names. We compared these fields in the
    following files.
            •   Records in the SSR.
            •   Records in the MBR primary beneficiary file.
            •   Records in the MBR auxiliary beneficiary file.
            •   Records in the MBR primary beneficiary file against the MBR auxiliary
                beneficiary file.
            •   Records in the MBR against the SSR file.

We removed any cases where the benefits on one record were cross-referenced or
accounted for on the other record—as these individuals were entitled on multiple
records or were concurrent beneficiaries—and SSA has processes in place to ensure
benefits are adjusted appropriately. In addition, we removed cases identified in our
previous audits. 2

We then obtained the Numident record for each beneficiary and compared beneficiaries’
full names and any other information on the records to help determine whether the




1
  A primary beneficiary is a Social Security numberholder entitled to benefits based on his/her own work
record. An auxiliary beneficiary is someone entitled to benefits based on someone else’s work record, by
virtue of relationship to the numberholder. SSA, POMS GN 03301.002 B. (August 1, 2008).
2
 SSA, Office of the Inspector General, Individuals Receiving Benefits Under Multiple Social Security
Numbers at the Same Address (A-01-05-25002), April 2005; Beneficiaries Paid Under More than One
Social Security Number (A-01-06-26022), August 2006; and Follow-up: Individuals Receiving Benefits
Under Multiple Social Security Numbers at the Same Address (A-01-10-11008), October 2011.


                                                  C-1
Social Security numbers (SSN) belonged to the same person or different individuals,
such as twins with similar names.3

Through this additional analysis, we identified 165 cases where we believed individuals
might be inappropriately receiving benefits under more than 1 SSN at different
addresses. We referred these cases to SSA for review and requested that the Agency
refer any instances of potential fraud to our Office of Investigations.

After obtaining feedback from SSA on our cases, we quantified the amount of
overpayments assessed by the Agency. We also calculated future savings for the next
12 months where SSA stopped the improper payments.

We conducted our audit between March and September 2011 in Boston,
Massachusetts. The entities audited were the field offices and program service centers
under the Office of the Deputy Commissioner for Operations and the Offices of
Retirement and Survivors Insurance Systems, Disability Systems, and Applications and
Supplemental Security Income Systems under the Deputy Commissioner for Systems.
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We tested the data obtained for
our audit and determined them to be sufficiently reliable to meet our objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




3
 The Numident Master File houses, in SSN order, the identifying information for each numberholder.
SSA, POMS, RM 10240.010 (April 26, 2010).


                                                 C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      December 09. 2011                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis    /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Follow-up: Individuals Receiving Benefits Under
           Multiple Social Security Numbers at Different Addresses”(A-01-11-11145)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“FOLLOW-UP: INDIVIDUALS RECEIVING BENEFITS UNDER MULTIPLE SOCIAL
SECURITY NUMBERS AT DIFFERENT ADDRESSES”
(A-01-11-11145)

Recommendation

Once the Office of Investigations completes its assessment of the pending potential fraud cases,
we recommend SSA take appropriate action, such as assessing overpayments, stopping benefits,
etc.

Response

We agree. We will continue to work with the Office of Investigations and take appropriate
action based on the outcome of its assessment.




                                              D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Katie Toli, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-11-11145.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
